                            STATE OF CALIFORNIA

                  EVALUATION OF GRANT OBLIGATIONS
                         AND EXPENDITURES

                 WORKFORCE INVESTMENT ACT GRANTS
                  AND JOB TRAINING PARTNERSHIP ACT
                          TRANSITION FUNDS


                 INDEPENDENT ACCOUNTANT’S REPORT
                ON APPLYING AGREED-UPON PROCEDURES

                 JULY 1, 2000 THROUGH DECEMBER 31, 2001




This agreed-upon procedures report was prepared by Harper, Rains, Stokes and Knight, P.A.,
under contract to the U.S. Department of Labor, Office of the Inspector General, and by
acceptance it becomes a report of the Office of Inspector General.


                                    ______________________________
                                    Assistant Inspector General For Audit
                                    U.S. Department Of Labor




                                                 Report No: 04-03-011-03-390
                                                 Date Issued: March 28, 2003

                  HARPER, RAINS, STOKES, & KNIGHT, P.A.
                                                   TABLE OF CONTENTS


Acronyms .......................................................................................................................................iii

Independent Accountant’s Report on Applying Agreed-Upon Procedures .................................... 1

Summary of Results ........................................................................................................................ 2

Background, Scope and Methodology ........................................................................................... 3

           Background ......................................................................................................................... 3
           Scope and Methodology...................................................................................................... 4

Procedures and Findings ................................................................................................................. 5

Exhibit I – Sample Financial Status Report

Exhibit II – The State of California’s Response




                                                                     ii
                            ACRONYMS


CFR    Code of Federal Regulations

DOL    U.S. Department of Labor

EDD    California Employment Development Department

ETA    Employment and Training Administration

FIFO   First-In-First-Out

FSR    Financial Status Report

FY     Fiscal Year

JTPA   Job Training Partnership Act

OGCM   Office of Grants and Contract Management

OIG    Office of the Inspector General

PY     Program Year

QER    WIA Quarterly Expenditure Report

WIA    Workforce Investment Act

WIB    Workforce Investment Board (Local Board)




                               iii
                                 SUMMARY OF RESULTS


We obtained and summarized the WIA funds obligated and expended by the State of
California as of December 31, 2001. We determined that the obligation information reported
by the State included actual obligations for Local Boards and Statewide activities.

We found that the accounting records supported the amounts reported as obligations and
expenditures on quarterly Financial Status Reports (FSRs). Procedures were established for
recording transactions on the accrual basis of accounting in accordance with Federal
regulations. However, we found that one of the three Workforce Investment Boards (WIBs)
visited, the Sacramento Employment and Training Agency, reported expenditures on the cash
basis of accounting during our review period. Supporting schedules and detailed reports
substantiated the amounts of expenditures reported to EDD by the WIBs.

As of December 31, 2001, California had expended $680.1 million, or 52 percent of the
$1,308.1 million awarded, leaving $628 million or 48 percent unexpended. At this rate of
spending, it would take approximately 17 months to spend the remaining funds, during which
time EDD would receive additional WIA allocations.

The EDD and WIBs charged expenditures to WIA grants on a First-In-First-Out (FIFO)
basis, rather than matching Program Year (PY) expenditures with the grant applicable to the
period in which the expenditures occurred. If the FIFO methodology of charging cost had
not been used, expired funds would have been returned to DOL.

State of California’s Response

California’s written response to our draft report is included in its entirety at Exhibit II. In
general, the State agreed with the information presented in the report, but provided additional
comments. California stated that charging expenditures to WIA grants on a FIFO basis is not
prohibited, and is an accepted practice. California also stated they would continue to report
only those amounts for which a legal liability exists as obligations.

Our procedures were not intended to determine California’s compliance with program
requirements. Our report described actual reporting practices and their effect.

By using a FIFO methodology, California does charge current expenditures to prior period
funds until exhausted. Therefore, FIFO accounting for expenditures ensures total
consumption of program year appropriations, even though all of a particular year’s funds
may not have been needed.

We did not indicate that the manner in which the State reported obligations was not in
compliance with WIA requirements. We merely stated that California’s definition of
“obligations” is not consistent with that of 20 CFR 660.300.




                                               2
                     BACKGROUND, SCOPE AND METHODOLOGY


Background

WIA, enacted in 1998, was designed to reform prior Federal job training programs and create
a new comprehensive workforce investment system. The new system intends to provide
customer-focused services, assist Americans in accessing the tools needed to manage their
careers through information and services, and assist U.S. companies in finding skilled
workers. The WIA superseded the JTPA and amended the Wagner-Peyser Act.

Initial grants for the WIA program were awarded by DOL, ETA, beginning in PY 2000.
However, unexpended funds from the PY 1998 and PY 1999 JTPA programs were
authorized for transition into the WIA program. Generally, the States are required to pass
through approximately 85 percent of the awards received from DOL to Local Boards
(subrecipients). States have the original program year plus two additional program years to
spend the grant funds. However, funds allocated by a State to a Local Board for any program
year are available for expenditure only during that program year and the succeeding program
year. Funds that are not expended by a Local Board in the two-year period must be returned
to the State.

States are required to report WIA activities on quarterly Financial Status Reports (FSRs).
Accrued expenditures and obligations are key items reported on the FSRs. Accrued
expenditures are reported when a valid liability has been created through delivery of goods or
services, regardless of when a cash payment is made. For example, salaries earned by
employees, but not yet paid, should be recorded as accrued expenditures. Obligations are
reported when certain events occur which will require payment by the States or Local Boards
in the same or a future period. Obligations are defined in the WIA regulation as follows:

       . . .the amounts of orders placed, contracts and subgrants awarded, goods
       and services received, and similar transactions during a funding period that
       will require payment by the recipient or subrecipient during the same or a
       future period [20 CFR 660.300] (emphasis added).

However, according to ETA, Office of Grants and Contract Management (OGCM), States
have been verbally instructed to report obligations for Statewide Activities and Rapid
Response only for those amounts of funding for which a legal obligation exists at the State
level. Likewise, the State has been instructed to report obligations for Local Board activities
(Local Administration, Youth, Adult and Dislocated Workers), only for those amounts of
funding for which a legal obligation exists at the Local Board level.

ETA had not clearly specified whether Local Boards’ obligations or States’ pass-through
awards should be included on FSRs.




                                               3
Scope and Methodology

Our agreed-upon procedures comprise WIA funds awarded to California for PY 2000, FY
2001, PY 2001 and FY 2002, as well as PY 1998 and PY 1999 JTPA funds transitioned into
the WIA program. Procedures were applied to grant activities reported by the State and three
Local Boards (Alameda County Workforce Investment Board, Sacramento Employment and
Training Agency and Los Angeles County Workforce Investment Board), from July 1, 2000
through December 31, 2001.

In general, our procedures were designed to summarize California’s WIA financial activity
(obligations and expenditures) through December 31, 2001, to determine if the amounts
reported to ETA agreed with the supporting accounting records, and to measure the extent to
which the State and Local Boards have obligated and expended WIA funds.




                                             4
                           PROCEDURES AND FINDINGS


1.   Interview the appropriate EDD personnel regarding how information is
     accumulated from the WIBs and about the preparation of the FSRs. Using this
     information, verify exactly what obligations were reported on the
     December 31, 2001 WIA Quarterly FSRs. Determine if the amounts passed
     through to the WIBs are reported as obligations on the FSRs. Based on the
     information obtained, determine if EDD is reporting obligations as described at
     20 CFR 660.300 to include subgrants awarded to subrecipients.

     As of December 31, 2001, the amounts reported as “obligations” on all FSRs (Adult,
     Youth, Dislocated Worker, Administrative, Rapid Response and Statewide Activities)
     represented legal obligations to service providers. The WIBs report to EDD using
     Quarterly Expenditure Reports (QERs) that are comparable to the FSRs used by EDD
     to report obligations to the DOL. QERs are required to be submitted to EDD no later
     than 20 calendar days after the end of each calendar quarter.

     According to representatives of EDD, funds allocated to WIBs are not reported as
     obligations until such time as a contract exists between a service provider and the
     WIBs. This manner of reporting obligations is the same at the State level. In the
     opinion of EDD representatives, the existence of a contract between a service
     provider and either the State of California or a WIB constitutes a legal liability. As a
     result, EDD is reporting the amounts of “actual” obligations at the WIB level rather
     than merely reporting the amounts allocated to the WIBs.

     Based on our review of schedules and detail reports provided as support for the FSRs,
     we determined that obligations reported on all FSRs represented bona fide legal
     liabilities. California is reporting obligations only to the extent to which they have
     been legally obligated at either the State or Local Board levels. The State does not
     report obligations as defined in 20 CFR 660.300 which would include all funds
     allocated to the WIBs, not just funds legally obligated.




                                             5
     2. Determine how EDD tracks the various funding periods for both EDD activities
        and WIB activities, and if data is accounted for in a manner that will allow
        expenditures to be matched against the appropriate obligation.

        Based on discussions with representatives of EDD as well as examination of financial
        records at EDD and Local Boards, we determined that EDD does not always match
        expenditures with the appropriate fiscal period’s funding. Rather, current
        expenditures are charged against the earliest available funding.

        Expenditure information reported to EDD by the WIBs was identified by funding
        period; however, reported expenditures were charged to the earliest year that funding
        remained available, rather than the year in which the expenditures occurred. As a
        result, a program’s cost could not be matched with the period for which it was
        funded.

3.      Determine if the expenditure information (Outlays on the December 31, 2001
        FSRs) was reported on the accrual basis of accounting as required at 29 CFR 97
        and the WIA reporting instructions at 20 CFR 667.300 (c) (3).

        As discussed in greater detail at item 8 of this report, QERs contain the same general
        format as the Federal FSR. These quarterly reports detail, among other things, the
        amounts of expenditures incurred to date by the WIBs. These amounts then roll up
        into the Federal FSR as “Outlays”.

        We reviewed the instructions provided by EDD to the WIBs and determined that the
        amounts reported as “program expenditures” should include expenditures that have
        been incurred but for which payment has not been made by the WIBs. This manner
        of reporting is consistent with the accrual basis of accounting required by 29 CFR 97
        and the instructions at 20 CFR 667.300.

        We made specific inquiries of WIB officials regarding the inclusion of accruals in the
        amounts reported as expenditures to EDD. Representatives of the WIBs stated that
        amounts reported as expenditures included accruals as the instructions required.
        However, Sacramento Employment and Training Agency (SETA) reported
        expenditures on the cash basis for the first three quarters of each program year. Then
        for the fourth quarter, the accrual basis was used to report expenditures.




                                               6
4.   Determine what information is required to be reported by the WIBs to EDD,
     including the content, format, frequency and any written instructions issued by
     EDD. Obtain copies of reports submitted by the WIBs and copies of written
     instructions.

     Our review of the Fiscal Reporting Instruction Guidelines and Quarterly Financial
     Reporting Requirements established by EDD and distributed to the WIBs and
     discussions with representatives of EDD revealed that the WIBs are required to report
     Federal funds available, accrued expenditures, unliquidated obligations, and, where
     applicable, any program income or stand-in cost. The QERs did not include
     obligations. However, we were able to determine obligations using the information
     that was reported to EDD on the QERs.

5.   Obtain or prepare from documents supporting the FSRs, a summary of the
     QERs from the WIBs and analyze this information to select the WIBs to visit.

     We summarized information included in the “Cumulative Expenditure to Date WIA
     Report” prepared by EDD which detailed, by funding stream for each funding year,
     the amounts of Allocations, Program Expenditures, Program Unliquidated
     Obligations and Program Obligations. Utilizing this information, we made a
     judgmental selection of three WIB offices in which to conduct fieldwork. The WIBs
     selected for site visits were the Sacramento Employment and Training Agency, the
     Alameda County WIB, and the Los Angeles County WIB.

6.   Compare the information compiled at ETA to the reports prepared by EDD and
     explain any differences determined.

     We examined the FSRs reported by EDD to the DOL, and compared them to the
     corresponding data compiled at ETA. The information on the FSRs agreed to the
     information compiled at ETA. Key elements of the FSR data were extracted from the
     reports, including Total Federal Funds Authorized, Obligations, Outlays (accrued
     expenditures), and the Unobligated Balance of Federal Funds for each funding stream
     for each PY and FY. This extracted data was then used to perform the analytical
     procedures as described at item 7 of this report.




                                           7
7.   Perform an analytical review of the information obtained to develop trend
     information and investigate any unusual relationships noted.

     Total Federal Funds Authorized

     The table below shows the total WIA funds awarded by the DOL to EDD since
     inception of the WIA program:

      Funding  Beginning of          Expiration of      Total WIA Funds
       Period Spending Period       Spending Period         Awarded
      PY 1998 JTPA transition        June 30, 2001      $     1,727,184

      PY 1999     JTPA transition     June 30, 2002     $     88,189,823

      PY 2000      July 1, 2000       June 30, 2003     $    310,532,857

      FY 2001    October 1, 2000      June 30, 2003     $    319,358,288

      PY 2001      July 1, 2001       June 30, 2004     $    311,857,976

      FY 2002    October 1, 2001      June 30, 2004     $    299,455,979

      Less:     Rescission of PY 2001 funds             ($   23,003,656)

                            Total Awards                $ 1,308,118,451

     WIA funds are awarded on a PY basis from July 1 to June 30, except for Youth grants
     that are available in April preceding the start of the PY. However, a portion of PY
     2000 and 2001 funding, denoted as “FY” above, was not available until October 1 of
     each respective PY.




                                          8
7. (Continued)

      WIA Funds Obligated

      Data presented below reflects total WIA funds obligated by EDD as of the quarter
      ended December 31, 2001.

                                                       Total WIA
                                   Total Funds            Funds          Amount           Percent of
                                     Awarded            Obligated      Unobligated         Funding
        Funding Period             (in millions)      (in millions)    (in millions)     Unobligated
           PY 1998                 $       1.7        $         1.7    $        0.0         0.0 %

            PY 1999                $       88.2       $       87.4     $        0.8          0.9 %

            PY 2000                $     310.5        $      295.7     $       14.8          4.8 %

            FY 2001                 $    319.4        $      281.9     $       37.5         11.7 %

            PY 2001                $     311.9        $      206.0     $      105.9         34.0 %

            FY 2002                 $    299.5        $      118.4     $      181.1         60.5 %

    Less: PY 2001 Rescission       ($     23.0)           N/A          ($     23.0)           N/A

              Total                $    1,308.1       $      991.0     $     317.1          24.2 %

      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by EDD and summarized. Additionally, a portion of PY 2001 funding was rescinded as
      noted above. In some instances, individual amounts in the above columns do not sum to the
      amount presented as “Total” due to rounding differences.

      Because EDD does not report funding as obligated until such time as a legal liability
      exist for the funding, they reported only 75.8 percent of their funds as being
      obligated. Of the total $1,308.1 million available, $317.1 million (24.2 percent)
      remained unobligated as of December 31, 2001.




                                                  9
   7. (Continued)

   Total Federal Expenditures

   The following summary reflects total WIA expenditures reported by EDD through
   December 31, 2001. These amounts are recorded in DOL’s general ledger.

                                  Total Funds             Total            Amount              % of
                                    Awarded           Expenditures         Unspent            Funding
    Funding Period                (in millions)       (in millions)      (in millions)       Unexpended

        PY 1998                   $        1.7        $      1.7         $        0.0            0.0 %

        PY 1999                   $      88.2         $    81.2          $        7.0            7.9 %

        PY 2000                   $     310.5         $   260.2          $       50.3           16.2 %

        FY 2001                   $     319.4         $   224.9          $       94.5           29.6 %

        PY 2001                   $     311.9         $    81.6          $     230.3            73.8 %

        FY 2002                   $     299.5         $    30.5          $     268.9            89.8 %

Less: PY 2001 Rescission         ($      23.0)             N/A           ($     23.0)            N/A

          Total                   $ 1,308.1           $   680.1          $     628.0            48.0 %

   Note: Information in the above table was obtained from quarterly Financial Status Reports prepared
   by EDD and summarized. Additionally, a portion of PY 2001 funding was rescinded as noted above.
   In some instances, individual amounts in the above columns do not sum to the amount presented as
   “Total” due to rounding differences.



   Of the $1,308.1 million WIA funds awarded to EDD, the State spent $680.1 million
   (52 percent) leaving $628 million (48 percent) unspent as of December 31, 2001.




                                                 10
7. (Continued)

      Expenditure Analysis by Funding Stream

      The following provides a summary of the unspent funding by program component:

                                            Amount            Amount             Percent of
                                            Awarded           Unspent             Funding
          Program Component               (in millions)     (in millions)       Unexpended

       WIB Activities:
       Adults                             $      288.7       $     98.9            34.3 %
       Dislocated Worker                  $      307.6       $    139.9            45.5 %
       Local Admin                        $       97.6       $     49.4            50.6 %
       Youth                              $      285.1       $    129.3            45.4 %
       Total WIB
        Activities                        $      979.1       $    417.4            42.6 %

       EDD Activities:
       State-wide Activities              $      209.3       $    135.4            64.7 %
       State-wide Rapid Response          $      142.8       $     98.2            68.8 %
       Total State Activities             $      352.0       $    233.6            66.4 %

       Less: PY 2001 Rescission          ($       23.0)     ($      23.0)            N/A

       Total Funding                      $ 1,308.1          $    628.0            48.0 %

      Note: Information in the above table was obtained from quarterly Financial Status Reports
       prepared by EDD and summarized. Additionally, a portion of PY 2001 funding was rescinded
      as noted above. In some instances, individual amounts in the above columns do not sum to the amount
      presented as “Total” due to rounding differences.

      The expenditure data submitted by EDD through December 31, 2001, indicates that a
      significant amount of WIA funds at both the State and WIB levels was not spent as of
      that date (66.4 percent and 42.6 percent, respectively).




                                                  11
8.   Interview the appropriate WIB personnel regarding how information is
     accumulated and about the preparation of the WIB reports to EDD. Inquire as
     to the source of obligation, cost and/or payment information reported to EDD by
     the WIB, and determine if the information reported agrees with the
     corresponding source accounting records.

     Through discussions with WIB personnel, we determined that obligation and
     expenditure information, as well as the funding availability by period is reported by
     the WIBs to EDD using QERs. As mentioned at item number 4 of this report, there is
     no separate line item for obligations on the QERs.

     We obtained copies of these reports at EDD as well as the WIB level during our visits
     to sites. The QERs include the Federal funds allocated for each PY and FY in
     addition to expenditures, refunds and rebates. It also discloses the amounts
     designated as “unliquidated” obligations by the WIBs, in addition to any program
     income or stand-in cost.

     In conjunction with the QERs, we reviewed the source accounting records at the three
     WIBs we visited, in order to determine if they supported the information reported to
     EDD. In all instances, the WIBs provided us with documentation supporting the
     amounts reported as obligations and expenditures.

9.   Determine how the WIB tracks the various funding periods and if data is
     reported and accounted for in a manner which will allow expenditures to be
     matched against the appropriate obligation or subcontract agreement.

     The WIBs employ FIFO methodology in associating period expenditures with
     funding sources. This methodology does not allow for the matching of a particular
     period’s expenditures with the funding allotted to that period. As such, expenditures
     reported by the WIB are not matched with the funding in which they were obligated,
     rather they are charged against prior period remaining funds until these funds have
     been exhausted and then matched against subsequent periods’ funding.

     For example, any amount of PY 2000 funding that remained after PY 2000 had
     lapsed would be used to satisfy a subsequent period’s expenditures until all of PY
     2000 funding was exhausted. PY 2001 funding would have subsequently been used
     to satisfy the period’s expenditures. Matching a period’s expenditures against prior
     period funding dissociates the funding allotted to a specific period from the cost of
     that period.




                                           12
10.   Determine how the WIB defines an obligation and the point at which funds are
      considered to be obligated. Determine if the WIB definition includes only
      anticipated expenditures to meet bona fide needs of the funding program year
      and for which a legal liability exists.

      At the three WIBs visited, representatives indicated that the “obligation” of funds
      coincides with the decision to contract for services under WIA. Funds are obligated
      in anticipation of making payments to contractors for bona fide needs of the WIA
      program. The signing of a contract between the WIB and a contractor results in a
      legal liability. Thus, the Local Board’s definition includes only anticipated
      expenditures to meet bona fide needs for which a legal liability exists.

      However, as mentioned at item number 9 of this report, there is no appropriate
      matching of the funding year and program year due to EDD’s and WIBs’ use of FIFO
      methodology.




                                           13
                                                                           EXHIBIT I

                    SAMPLE FINANCIAL STATUS REPORT




Following this title page is a WIA financial status report used to report program
activities to DOL.




                                      14
15
                                                                             EXHIBIT II


                          THE COMPLETE TEXT OF
                    CALIFORNIA’S RESPONSE TO THE DRAFT
                      AGREED-UPON PROCEURES REPORT




Following this title page is the complete text of California’s response to our agreed-upon
procedures report, issued to them on February 28, 2003.




                                           16
March 24, 2003
78:169


Mr. Robert R. Wallace
Regional Inspector General for Audit
U. S. Department of Labor – OIG
61 Forsyth Street, S.W., Room 6T20
Atlanta, GA 30303-3104



Dear Mr. Wallace:

This letter is the California Employment Development Department’s (EDD)
response to the Department of Labor (DOL), Office of Inspector General, draft
report for financial activities involving Workforce Investment Act (WIA) grant and
Job Training Partnership Act transition funds awarded to California. Below is the
EDD’s response.

• Page 2 contains the statement, "The EDD and Workforce Investment Boards
  (WIB) charged expenditures to WIA grants on a First-In-First-Out (FIFO) basis,
  rather than matching Program Year (PY) expenditures with the grant applicable
  to the period in which the expenditures occurred. If the FIFO methodology of
  charging cost had not been used, expired funds would have been returned to
  DOL."

  EDD’s Response

  1) The FIFO basis of accounting is an accepted accounting practice;
  2) The EDD is not aware of any requirement in WIA law or regulation to match
  PY expenditures to the federal grant awarded in that same PY, only that PY
  expenditures must be paid out of currently-available funding; i.e., funds
  received in a subsequent PY may not be used to pay for costs incurred in a
  previous PY; 3) Given that the audit examined California's WIA obligations and
  expenditures as of December 31, 2001, which is six months prior to the date on
  which the earliest of the audited funds would have expired, there was no way of
  knowing whether expired funds would have been returned to the DOL.
  California did not return any PY 00 funds to the DOL, and does not anticipate
  returning any PY 01 funds to the DOL.




                                       17
• Page 5 contains the statement, "The State does not report obligations as
  defined in 20 CFR 660.300, which would include all funds allocated to the
  WIBs, not just funds legally obligated."

  EDD’s Response

  As noted on page 3 of the report, the DOL, ETA verbally instructed states to
  report only those amounts for which a legal obligation exists. The written
  instructions issued by DOL, ETA, in November 2002, said that obligations
  should not reflect the State’s obligation of funds to the local areas for formula
  Adult, Youth, and Dislocated Worker funds, but should reflect the State’s
  obligation of 15 percent and 25 percent funds to local areas. California plans to
  continue reporting obligations as instructed by the DOL, ETA.

• Page 12, item 9, states the WIB-employed FIFO methodology does not allow
  for the matching of a particular period’s expenditures with the funding allotted
  for that period.

  EDD’s Response

  As stated in the response for the first bullet above, the use of FIFO is an
  accepted accounting practice. In addition, the expenditures can be matched
  back to a particular obligation or subgrant agreement.

If you have any questions regarding this response, please contact
Mr. Dennis Lloyd, Chief, Audit and Evaluation Division, at (916) 654-7000.

Sincerely,



MICHAEL S. BERNICK
Director

cc: Stephen J. Smith, LWDA, C-25




                                       18
